 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


THE SOUTHERN AFRICAN CATHOLIC
BISHOPS’ CONFERENCE AIDS OFFICE
GENERALLY MANAGED PRESIDENT’S
EMERGENCY PLAN FOR AIDS RELIEF
FUNDS AND MET PROGRAM GOALS IN
    ACCORDANCE WITH AWARD
          REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         July 2013
                                                       A-05-12-00023
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS), Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling
$1.2 billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 5U2GPS001340), CDC awarded
PEPFAR funds totaling $12,952,887 to the Southern African Catholic Bishops’ Conference
AIDS Office (SACBC) for the budget period June 1, 2009, through May 31, 2010. SACBC’s
mission is to help coordinate the Catholic Church response to HIV and AIDS in South Africa,
Swaziland, and Botswana. SACBC entered into a cooperative agreement with CDC to provide
treatment, care, and education to those impacted by HIV and AIDS in South Africa. The goals
of the cooperative agreement were to:

    •   provide new and existing patients with optimum quality anti-retroviral treatment (ART)
        and anti-retroviral care;

    •   provide orphans and vulnerable children with holistic care;

    •   provide technical, clinical, financial and managerial support to sites to ensure services
        are delivered efficiently and effectively; and

    •   maintain and strengthen relationships with other stakeholders to enable future
        sustainability and viability of the program.


                                                 i
OBJECTIVE

Our objective was to determine whether SACBC managed PEPFAR funds and met program
goals in accordance with the award requirements.

SUMMARY OF FINDINGS

SACBC generally managed PEPFAR funds and met program goals in accordance with award
requirements. With respect to financial management, of the 33 financial transactions totaling
$460,493 that we tested:

   •   25 transactions totaling $442,083 were allowable;

   •   6 transactions totaling $15,907 were unallowable because the expenditures were not
       allowable in accordance with Federal regulations; and

   •   2 travel related transactions totaling $2,503 were set aside because we were unable to
       determine whether the transactions were allowable.

Additionally, SACBC:

   •   used $25,441 of PEPFAR funds to pay potentially unallowable value-added taxes (VAT)
       on purchases and

   •   did not submit the results of an annual financial audit to HHS’s National External Audit
       Review Center (NEAR) as required by the notice of award (NOA).

Our program management review found that, of the 32 accomplishments sampled from the
annual progress report, 2 accomplishments were only partially met. The remaining 30
accomplishments were adequately supported. However, SACBC did not address two of the
program goals from its application in the progress report, and the progress report was not
submitted on time.

SACBC’s policies and procedures did not ensure that it:

   •   followed Federal regulations for reporting expenditures under the cooperative agreement,

   •   maintained supporting documentation for reported expenditures under the cooperative
       agreement,

   •   properly collected, verified, summarized, recorded, and reported performance
       information related to the cooperative agreement in a timely manner, and

   •   submitted the annual financial audit report to NEAR as required by the NOA.



                                               ii
RECOMMENDATIONS

We recommend that SACBC:

   •   refund to CDC $15,907 of unallowable expenditures;

   •   work with CDC to determine the allowability of the $2,503 related to potentially
       unallowable travel expenses;

   •   work with CDC to resolve whether the $25,441 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   develop and implement policies and procedures to ensure that:

          o expenditures reported under the cooperative agreement are allowable in
            accordance with Federal regulations and

          o it maintains adequate supporting documentation for expenditures of Federal
            funds;

   •   develop and implement policies and procedures covering:

          o the overall process of collecting, verifying, summarizing, recording, and reporting
            performance information related to the cooperative agreement and

          o the timely submission of the progress report to CDC; and

   •   submit annual audit reports to NEAR in accordance with the NOA.

SOUTHERN AFRICAN CATHOLIC BISHOPS’ CONFERENCE AIDS OFFICE
COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

SACBC generally concurred with our recommendations and described actions it has taken to
address them. We continue to recommend SACBC refund the unapproved international travel
costs.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              Southern African Catholic Bishops’ Conference AIDS Office ......................... 2
              Federal Requirements and Departmental Policies ............................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FINANCIAL MANAGEMENT .................................................................................... 5
               Federal Regulations ........................................................................................... 5
               Financial Transaction Testing ............................................................................ 5
               Potentially Unallowable Travel Expenses ......................................................... 6
               Expenditures for Value-Added Tax ................................................................... 6

          PROGRAM MANAGEMENT ...................................................................................... 7
              Federal Regulations and Funding Opportunity Announcement ........................ 7
              Progress Report Testing ..................................................................................... 7
              Goals Not Addressed in Progress Report........................................................... 7
              Progress Report Submission .............................................................................. 7

          NON-FEDERAL AUDIT REPORT .............................................................................. 8

          INADEQUATE POLICIES AND PROCEDURES ...................................................... 8

          RECOMMENDATIONS ............................................................................................... 9

          SOUTHERN AFRICAN CATHOLIC BISHOPS’ CONFERENCE AIDS OFFICE
            COMMENTS ............................................................................................................ 9

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 10

APPENDIX: SOUTHERN AFRICAN CATHOLIC BISHOPS’ CONFERENCE AIDS
          OFFICE COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other public health
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC obligated 1 PEPFAR funds totaling $1.2 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 2 In response to a Funding Opportunity Announcement (FOA), 3
CDC awarded the Southern African Catholic Bishops’ Conference AIDS Office (SACBC) grant
number 5U2GPS001340 through a cooperative agreement for the project period September 30,
2008, through May 31, 2013.




1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives (GPD) 1.02, the highest level of
policy within HHS that governs grants.
2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number PS08-871 is entitled: Inter-Agency PEPFAR Annual Program Statement for USG to the Republic of
South Africa.



                                                            1
Southern African Catholic Bishops’ Conference AIDS Office

SACBC’s mission is to help coordinate the Catholic Church response to HIV and AIDS in South
Africa, Swaziland, and Botswana. SACBC entered into a cooperative agreement with CDC to
provide treatment, care, and education to those impacted by HIV and AIDS in South Africa. The
goals of the cooperative agreement were to:

    •   provide new and existing patients with optimum quality anti-retroviral treatment (ART)
        and anti-retroviral care;

    •   provide orphans and vulnerable children with holistic care;

    •   provide technical, clinical, financial and managerial support to sites to ensure services
        are delivered efficiently and effectively; and

    •   maintain and strengthen relationships with other stakeholders to enable future
        sustainability and viability of the program.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization
(GPS II-113). Thus, the rules in 45 CFR part 74 apply to a foreign nonprofit organization.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 74 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from SACBC on April 2, 2009, as a
part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether SACBC managed PEPFAR funds and met program
goals in accordance with the award requirements.

Scope

Our audit covered the budget period from June 1, 2009, through May 31, 2010. This budget
period was the second year of a 5-year cooperative agreement. During the budget period under
review, CDC awarded SACBC $12,952,887.



                                                 2
We limited our review of internal controls to those related to our objective. We conducted
fieldwork at SACBC’s offices in Pretoria, South Africa.

Methodology

To accomplish our objective, we:

      •    reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
           SACBC’s policies and procedures;

      •    interviewed and conducted meetings with SACBC officials to determine their processes
           and procedures related to financial accounting and reporting, and program goals and
           accomplishments;

      •    reconciled to its accounting records SACBC’s financial status report (FSR) 4 for the
           budget period under review;

      •    selected and reviewed a judgmental sample of 33 financial transactions with expenditures
           totaling $460,493 from the cooperative agreement award of $12,952,887, and included
           expenditures such as:

               o restricted funds, if specified on the NOA;

               o unallowable costs, such as indirect costs, if specified on the NOA;

               o transactions above/below the average transaction amount in an expenditure
                 category;

               o consulting and government fees; and

               o other unusual transactions;

      •    identified the amount of value-added taxes (VAT) 5 that SACBC paid with PEPFAR
           funds for the sample transactions;

      •    compared the accomplishments described in SACBC’s annual progress report to the
           cooperative agreement’s goals and objectives;




4
 Pursuant to 45 CFR 74.52(a)(1), FSRs are due to the CDC Grants Management Office 90 days after the end of the
budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.
5
    VAT is a form of consumption tax.



                                                      3
   •   selected a judgmental sample of 32 accomplishments described in SACBC’s annual
       progress report and reviewed supporting documentation to determine whether SACBC
       met program goals and objectives; and

   •   conducted site visits at the Nazareth House in Johannesburg and Tapologo Program in
       Rustenburg, South Africa.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

SACBC generally managed PEPFAR funds and met program goals in accordance with award
requirements. With respect to financial management, of the 33 financial transactions totaling
$460,493 that we tested:

   •   25 transactions totaling $442,083 were allowable;

   •   6 transactions totaling $15,907 were unallowable because the expenditures were not
       allowable in accordance with Federal regulations; and

   •   2 travel related transactions totaling $2,503 were set aside because we were unable to
       determine whether the transactions were allowable.

Additionally, SACBC:

   •   used $25,441 of PEPFAR funds to pay potentially unallowable VAT on purchases, and

   •   did not submit the results of an annual financial audit to HHS’s National External Audit
       Review Center (NEAR) as required by the NOA.

Our program management review found that, of the 32 accomplishments sampled from the
annual progress report, 2 accomplishments were only partially met. The remaining 30
accomplishments were adequately supported. However, SACBC did not address two of the
program goals from its application in the progress report, and the progress report was not
submitted on time.

SACBC’s policies and procedures did not ensure that it:

   •   followed Federal regulations for reporting expenditures under the cooperative agreement,

   •   maintained supporting documentation for reported expenditures under the cooperative
       agreement,


                                               4
    •   properly collected, verified, summarized, recorded, and reported performance
        information related to the cooperative agreement in a timely manner, and

    •   submitted the annual financial audit report to NEAR as required by the NOA.

FINANCIAL MANAGEMENT

Federal Regulations

Pursuant to 2 CFR part 230, Appendix B, § 8.b(1), compensation is allowable to the extent that
total compensation is reasonable for the services rendered. Additionally, 2 CFR part 230,
Appendix B, § 8.m states, the distribution of salaries and wages must be supported by personnel
activity reports, which reflect an after-the-fact distribution of the actual activity and account for
the total activity for which each employee is compensated. Federal regulations (2 CFR part 230,
Appendix B, § 8.h) also state that the portion of cost of organization-furnished automobiles that
related to personal use by employees (including transportation to and from work) is unallowable
as fringe benefits or indirect costs regardless of whether the cost is reported as taxable income to
the employees.
Federal regulations (2 CFR part 230, Appendix B, § 51(e)) state that direct charges for foreign
travel costs are allowable only when the travel has received prior approval of the awarding
agency. Pursuant to 45 CFR § 74.21(b)(7), accounting records must be supported by source
documentation. Federal regulations (2 CFR part 230, Appendix A, § A.2) state that costs must
be adequately documented to be allowable under an award.
Pursuant to the HHS GPS (Section II-114), certain costs, including VAT, are unallowable under
foreign grants and domestic grants with foreign components. Also, bilateral agreements with
foreign governments may stipulate an exemption from paying the VAT for those contractors and
grantees that are funded by and providing foreign aid from the United States. 6

Financial Transaction Testing

Of 33 transactions totaling $460,493, 25 transactions totaling $442,083 were allowable, but 6
transactions totaling $15,907 were unallowable (table below). We were unable to make a
determination on the allowability of two transactions totaling $2,503.




6
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommended that SACBC work with CDC to resolve the issue.




                                                       5
                             Unallowable Financial Transactions

                                                     Sample
                        Category                   Transactions        Total
                 Salary Costs                           2             $12,705
                 Vehicle Cost                           1               2,327
                 Travel Costs                           2               477
                 Communication Cost                     1               398
             Total                                      6             $15,907

For one salary-related transaction, based on our review of monthly time reports, the employee
failed to work the hours required by his contract. This employee was paid $10,130 for hours not
worked as agreed upon in the employment contract. For an additional salary-related transaction
totaling $2,575, SACBC could not provide supporting documentation, including personnel
activity reports. For one vehicle-related transaction, SACBC allowed individuals to use
PEPFAR-purchased vehicles for personal use and those vehicle expenses totaling $2,327 were
allocated to the PEPFAR program. For one travel-related transaction totaling $455, SACBC
allowed a subcontractor to travel internationally without gaining approval from the awarding
agency. For another travel-related transaction, SACBC paid an employee per diem for meals and
also reimbursed the exact amount of a meal of $22 on the same day. For one communication-
related transaction including telephone charges totaling $398, SACBC could not provide
documentation to support the expense.

Potentially Unallowable Travel Expenses

For two sample items, SACBC reimbursed travel expenses amounting to $2,503 for kilometers
traveled to an employee who submitted questionable travel vouchers. This employee submitted
invoices that could not be verified to document travel related to the PEPFAR program. SACBC
could not determine whether the employee actually traveled to the sites documented on the travel
vouchers. Because SACBC dismissed the employee and is still working to resolve this matter,
we set aside the $2,503.

Expenditures for Value-Added Tax

During the audit period, SACBC used $25,441 of PEPFAR funds to pay the VAT, a potentially
unallowable cost for this grant. It recorded the expenditures for the VAT as part of total
expenditures on its FSR.




                                               6
PROGRAM MANAGEMENT

Federal Regulations and Funding Opportunity Announcement

Pursuant to 45 CFR § 74.51(d), progress reports should generally compare actual
accomplishments to the established objectives for the period. Also, progress reports should
contain the reasons objectives were not met and, when appropriate, explanations of cost overruns
or high unit costs.

Pursuant to 45 CFR § 74.53, grantees are required to retain financial and statistical records,
supporting documents, and all other records pertinent to an award for 3 years from the
submission date of the final expenditure report for the funding period.

Additionally, the FOA states that SACBC should have measurable outcomes that are in
alignment with the performance goals. 7

Progress Report Testing

Of the 32 accomplishments sampled from the annual progress report, 2 were only partially met.
These two accomplishments related to the goal to provide 15,602 patients not qualifying for
ART with quality care and support services. Of the 15,602 patients, only 5,733 patients actually
received these services. However, SACBC reported that 20,645 received these services because
the number reported included patients who received ART. The remaining 30 accomplishments
were adequately supported.

Goals Not Addressed in Progress Report

SACBC did not address two of its program goals from its application in the progress report.
These goals related to both providing technical, clinical, financial, and managerial support to
sites and maintaining and strengthening relationships with other stakeholders to enable future
sustainability and viability. Despite not addressing these two program goals in its progress
report, SACBC accomplished them.

Progress Report Submission
Pursuant to 45 CFR § 74.51(b), recipients are required to submit annual progress reports, unless
the awarding agency requires quarterly or semiannual reports. Annual reports are due 90 days
after the end of the grant year. Quarterly and semiannual reports are due 30 days after the
reporting period. Final progress reports are due 90 days after the expiration or termination of the
award. The NOA provides the specific due dates for annual progress reports.

SACBC submitted its report to CDC 1 month late. SACBC’s grant year ended May 31, 2010;
therefore, the annual progress report was due on August 31, 2010. However, SACBC did not

7
 Section IV of the NOA—Special Terms and Conditions—makes the requirements found in the FOA part of the
award by reference.



                                                    7
submit the progress report to CDC until October 5, 2010. Without timely progress reports, CDC
may not be able to effectively monitor whether the recipient met program goals in accordance
with award requirements.

NON-FEDERAL AUDIT REPORT

The GPS, page II-115, states that foreign recipients are subject to the same audit requirements as
commercial organizations specified in 45 CFR § 74.26(d). Pursuant to 45 CFR § 74.26(d)(1),
recipients that are commercial organizations are required to file one of the following types of
audits if they expended more than $500,000 in one or more Federal awards during a FY: a
financial-related audit or an audit that meets the requirements of Office of Management and
Budget (OMB) Circular A-133.

Pursuant to OMB Circular A-133, audits must be completed annually and submitted for review
within the earlier of 30 days after receipt of the auditor’s report or 9 months after the end of the
organization’s FY, unless a longer period of time is agreed to by the agency (subpart B §__.200
and subpart C §__.320). 8

Pursuant to section IV, part 15 of the NOA, SACBC is instructed to submit audits completed in
accordance with OMB Circular A-133 to NEAR.

SACBC had an A-133 audit covering the period June 1, 2009, through May 31, 2010; however,
SACBC did not submit the audit report to NEAR as required by the NOA. 9 Without submitting
the audit report, HHS’s NEAR was unable to monitor recipient audit findings.

INADEQUATE POLICIES AND PROCEDURES

SACBC’s policies and procedures did not ensure that it:

      •    followed Federal regulations for expenditures under the cooperative agreement,

      •    maintained supporting documentation for allowable expenditures under the cooperative
           agreement,

      •    properly collected, verified, summarized, recorded, and reported performance
           information related to the cooperative agreement in a timely manner, and

      •    submitted the annual financial audit report to NEAR as required by the NOA.




8
 If a foreign entity chooses to have a financial-related audit pursuant to 45 CFR § 74.26(d), the same due dates
apply. (See Clarification of Audit Requirements of For-Profit Organizations Including SBIR/STTR Grantees, issued
by the HHS National Institutes of Health, Jan. 11, 2006).
9
    SACBC submitted its A-133 audit report to NEAR while the OIG was onsite.


                                                        8
RECOMMENDATIONS

We recommend that SACBC:

   •   refund to CDC $15,907 of unallowable expenditures;

   •   work with CDC to determine the allowability of the $2,503 related to potentially
       unallowable travel expenditures;

   •   work with CDC to resolve whether the $25,441 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   develop and implement policies and procedures to ensure that:

           o expenditures reported under the cooperative agreement are allowable in
             accordance with Federal regulations, and

           o it maintains adequate supporting documentation for expenditures of Federal
             funds;

   •   develop and implement policies and procedures covering:

           o the overall process of collecting, verifying, summarizing, recording, and reporting
             performance information related to the cooperative agreement, and

           o the timely submission of the progress report to CDC; and

   •   submit annual audit reports to NEAR in accordance with the NOA.

SOUTHERN AFRICAN CATHOLIC BISHOPS’ CONFERENCE AIDS OFFICE
COMMENTS
In its comments on our draft report, SACBC generally concurred with our recommendations and
described actions it has taken to address them.
SACBC generally agreed with our first recommendation, except for $455 in international travel
costs. SACBC’s comments included email correspondence between SACBC and CDC
describing a conference in Tanzania.
In addressing our second recommendation regarding potentially unallowable travel expenses,
SACBC stated that prior to our review, it had taken corrective action with respect to the travel
claims made by the former employee and had refunded the program for inappropriate or
unsubstantiated travel expenses. However, SACBC acknowledged that the amount repaid did
not include the $2,503 in mileage reimbursement identified in our report.
In response to our third recommendation regarding VAT, SACBC stated that subsequent to our
review, it reclaimed approximately $216,270 in VAT and credited it to the program. SACBC


                                                 9
concurred with our fourth, fifth, and sixth recommendations and described actions it has taken to
address them.

SACBC’s comments, excluding the email correspondence, are included in the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the email correspondence that SACBC provided with its comments. In response to
the $455 in international travel costs we determined that the documentation did not support the
unallowable expenditures. Therefore, we continue to recommend that SACBC refund $455 in
unapproved international travel costs.

SACBC voluntarily reclaimed $216,270 in VAT; OIG did not verify this amount has been
credited to the program. We commend SACBC for its actions taken in response to our audit.




                                               10
APPENDIX
                                                                                                                                                                         Page 1 of3


APPENDIX: SOUTHERN AFRICAN CATHOLIC BISHOPS' CONFERENCE 

                 AIDS OFFICE COMMENTS 





                                           Southern African Catholic Bishops' Conf erence



             Ms. Sheri Fulcher
             Regional inspector General for Audit Services
             Office of Audit Services, Region V
             233 North Michigan Suite 1360
             Chicago, IL 60601

             June 11,2013

              Dear Ms. Fulcher

             This letter seiVes as a response to your letters dated April 9, 2013 and May 28, 2013 regarding the
             "Draft Report for the Southern African Catholic Bishops' Conference AIDS Office (A-05-12-00023)."

             The Southern African Catholic Bishops' Conference (SACBC) AIDS Office accepts and
             acknowledges the recommendations made by the Office of the Inspector General (OIG) and submits
             the following detail responses related to our corrective actions:

                         OIG recommendation that SACBC refund to CDC $15,907 of unallowable expenditures.

                               o 	 Salary Costs of $10,130. SACBC concurs that an SACBC AIDS Office Project
                                   Coordinator at one of its sites did not work the number of hours as stated in the
                                   Contract of Employment with the site. SACBC AIDS Office has instigated new
                                   policies and procedures to ensure that all claims are checked and supported by the
                                   correct documentation (Section 4, Statement of Operating Practice Manual) and the
                                   documentation is checked on a monthly basis with the site only being reimbursed
                                   once all documentation is in order.

                               o 	 Salary Costs of $2,575 SACBC concurs that a time and effort report was not available
                                   for the individual listed for the month selected. SACBC AIDS Office has instigated
                                   new policies and procedures to ensure that all timesheets are submitted and checked
                                   on a monthly basis.

                               o 	 Vehicle Cost of $2,327. SACBC concurs that it was overcharged for vehicle costs
                                   from its subcontractor, Catholic Relief SeiVices (CRS), in relation to the claim made
                                   for CRS in April 2010. In April2010, CRS in apportioning vehicles expenses to
                                   SACBC failed to take account of the personal mileage. SACBC was charged 88 % of
                                   the total vehicle costs of R72,966.40 as opposed to 64% resulting in an overcharge of
                                   R\7,521.96. SACBC has instigated new policies and procedures to ensure that all
                                   claims are checked and supported by the correct documentation (Section 4, Statement
                                   of Operating Practice Manual) and the documentation is checked on a monthly basis
                                   with the site only being reimbursed once all documentation is in order. SACBC
                                   checked the CRS Vehicle claims for February 2010 and for May 2010 and the CRS
                                   policy for allocation of vehicle costs was properly applied.

                                o 	 Travel Cost of $22. SACBC concurs that a Project Coordinator at one of the site was
                                    paid at per diem for attending a workshop provided by SACBC at which meals were
                                    provided.



  Khanya House, 3 99 Paul Kruger Stroot , Pretoria; PO Box 941 , Pretoria 00 01, South Africa. Tel: +27 (12) 323 6458, Fax: +27 (12) 326 4309 , E-mail: amunro@sacbc.org.za
                                                                                                                                                                     Page 2 of3




                                         Southern African Catholic Bishops' Conference



                             o 	 Communication Cost of $398. SACBC concurs that there is insufficient supporting
                                 documentation available in respect of this transaction. The transaction in question
                                 refers to costs incurred by an OVC site, Oethsemane Health Care Centre, previously
                                 supported by SACBC under this Program. This site could not adhere to the reporting
                                 requirements of SACBC and, consequently, SACBC withdrew its support. SACBC
                                 has instigated new policies and procedures to ensure that all claims are checked and
                                 supported by the correct documentation (Section 4, Statement of Operating Practice
                                 Manual) and the documentation is checked on a monthly basis with the site only being
                                 reimbursed once all documentation is in order.

                       SACBC acknowledges and accepts that in line \vith the recommendations of the OIO and in
                       order to fully address this matter it may be required to repay these funds listed above.

                             o 	 Travel Cost of $455. SACBC concurs that it did not receive prior approval in
                                 connection with this trip. As the trip was taken at the invitation of CDC, prior
                                 approval was not requested and was assumed.

                       The emails from HRSA and CDC are attached. These had not previously been made available
                       to the OIO team.


                  • 	 OIO recommendation that SACBC work with CDC to determining the allowability of the
                      $2,503 related to potentially unallowable travel expenses.

                             o 	 This is a determination made by OIO in respect of fraudulent claims made by a former
                                 SACBC employee. SACBC, prior to the 010 visit, had already identified and taken
                                 corrective action in respect of the claims made by this former employee. The former
                                 employee was subject to a disciplinary hearing . Travel claims both in terms of
                                 mileage claims and travel expense reimbursement claims were reviewed over the
                                 period January 2009 to February 2011. Invoices identified as inappropriate or
                                 unsubstantiated were reversed resulting in SACBC repaying to the Program the sum
                                 of R57 ,746. SACBC can confirm that the amount of R57,746 repaid to the program
                                 did not include the amount of Rl9, 140 ($2,503) for mileage claims. SACBC has
                                 instigated new policies and procedures to ensure that all claims are checked and
                                 supported by the correct documentation including a Trip Report (Section 2.7 and 2.8,
                                 Statement of Operating Practice Manual).

                  • 	 OIO recommendation that SACBC work with CDC to resolve whether the $25,44 1 of VAT
                      was an allowable expenditure under the cooperative agreement.

                             o 	 SACBC historically had reclaimed VAT on invoices for Drugs and Lab tests where
                                 the Invoices where addressed to SACBC and displayed the SACBC VAT number in
                                 line with the South African Revenue Service (SARS) requirement. Subsequent to the
                                 OIO visit, SACBC reviewed the invoices and documentation it received from its sites
                                 and other invoices on which SACBC had not claimed VAT. Commencing in
                                 February 2012, SACBC AIDS Office has reclaimed VAT totaling R1,622,029.00
                                 (approx. $216,270.00) for the period under review (June I, 2009, to May 3 1, 2010)
                                 by OIO as part of its monthly VAT return. SACBC now claims VAT from SARS for

Khany a Houoo, 399 Paul Kruger Street, Pretoria; PO Box 941 , Pretoria 0001, South Africa . Tel : +27 (12) 323 6458, Fax : +27 (12) 326 4309, E-mail: amunro@sacbc _org .za
                                                                                                                                                                         Page 3 of3




                                            Southern African Catholic Bishops' Conference


                                   all VATABLE expenses on a monthly basis. SACBC credits th e VAT reclaimed to
                                   the Program.

                • 	 OIG recommendation that SACBC develop and implement policies and procedures to ensure
                    that expenditures reported under the cooperative agreement are allowable in accordance with
                    Federal regulations and it maintains adequate supporting documentation for expenditures of
                    Federal funds.

                           o 	 SACBC on the recommendation of the OIG tearu, developed and prepared a
                               Statement of Operating Procedures Manual (SOP) . The SOP has been made available
                               to CDC South Africa and SACBC welcomes any comments that CDC may have.

                • 	 OIG recommendation that SACBC develop and implement policies and procedures covering
                    the overall process of collecting, verifying, summarizing, recording, and reporting
                    p erformance information related to the cooperative agreement and the timely submissions of
                    the progress report to CDC.

                           o 	 SACBC on the recommendation of the OIG tearu, developed and prepared a
                               Statement of Operating Procedures Manual (SOP) . The SOP has been made available
                               to CDC South Africa and SACBC welcomes any comments that CDC may have.

                • 	 OIG recommendation that SACBC submit annual audit reports to NEAR in accordance with
                    theNOA.

                           o 	 Prior to the departure of the OIG Visit, SACBC submitted outstanding audited
                               Financial Reports to NEAR. SACBC has instigated new policies and procedures to
                               ensure that it complies with all its Grant Requirements (Section 7, Statement of
                               Operating Procedures). Confirmation correspondence has been received from NEAR
                               verifying that these reports w ere received.


           Yours sincerely




           Sr Alison Mumo
           Director, SACBC AIDS Office




Khanya Hous~. 399 Paul Kru ger   Str~et,   Pretoria ; PO Box 941, Pretoria 000 1, South Africa. Tel: +2 7 ( 12) 323 6458, Fax : +27 ( 12) 326 4309, E-mail : amunro@sacbc.orq.za
